UNITED STATES DEPARTMENT OF AGRICULTURE

        OFFICE OF INSPECTOR GENERAL



STATEMENT OF THE HONORABLE PHYLLIS K. FONG

              INSPECTOR GENERAL


                     Before the

Subcommittee on Agriculture, Rural Development, Food
   and Drug Administration, and Related Agencies

            Committee on Appropriations

            U.S. House of Representatives

                   March 21, 2013
Good morning, Chairman Aderholt, Ranking Member Farr, and Members of the Subcommittee.
Thank you for the opportunity to testify concerning the oversight the Office of Inspector General
(OIG) provides to Department of Agriculture (USDA) programs. As you know, OIG’s mission is to
promote economy, efficiency, effectiveness, and integrity in the delivery of USDA’s programs.

OIG conducts audits designed to ascertain if a program is functioning as intended, if program
payments are reaching intended recipients, and if funds are achieving their intended purpose. Our
audits make recommendations we believe will help USDA better accomplish its mission. We do not
have programmatic or operating authority over agencies or programs; instead, agencies are responsible
for implementing our recommended corrective actions. We also conduct investigations of individuals
and entities suspected of abusing USDA programs—these investigations can result in fines and
imprisonment for those convicted of wrongdoing, disqualification from USDA programs, and agency
disciplinary actions for USDA employees found to have engaged in misconduct.

In fiscal year (FY) 2012, OIG’s activities resulted in potential monetary results totaling over
$1.5 billion. We issued 76 audit reports intended to strengthen USDA programs and operations,
which produced about $1.4 billion in potential results. OIG investigations led to 538 convictions with
potential results totaling over $106 million.

Today I will discuss our most significant recent audits and investigations under our major strategic
goals, which provide a framework for prioritizing OIG’s continually changing portfolio of oversight
work. We will summarize our remaining work overseeing the Department’s administration of
American Recovery and Reinvestment Act of 2009 (Recovery Act) funds. 1 Finally, we will describe
OIG’s efforts to streamline our operations.

Goal 1: Strengthen USDA’s Safety and Security Measures for Public Health

To support USDA’s mission to ensure the wholesomeness of the U.S. food supply, OIG conducts
audits and investigations intended to ensure that U.S. consumers purchase safe, high quality products.

The Animal and Plant Health Inspection Service (APHIS) and Smuggling Interdiction

APHIS’ Smuggling, Interdiction and Trade Compliance (SITC) unit prevents the unlawful entry and
distribution of prohibited agricultural products that may harbor plant and animal pests, diseases, or

1
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                    1
invasive species. These prohibited products and pests cause billions of dollars in lost revenue and
millions in cleanup costs. We found that SITC’s control environment did not include a system of
management accountability that would foster efficiency, adequacy, or accuracy in achieving its core
mission and reporting its results. For example, 90 percent of SITC’s market surveys (intended to seize
prohibited products and investigate their origins) were not successful at either seizing a prohibited
product or in generating a trace back to identify the importer of a prohibited product. For the surveys
that were successful in these two areas, SITC did not take further action to stop future shipments for
96 percent of the higher-risk imported prohibited products it seized. We recommended that APHIS
assess the effectiveness of SITC’s mission, and the agency agreed.

The Food Safety and Inspection Service (FSIS) and Meat Inspection

OIG has also published several recent audits intended to help improve the quality of inspections FSIS
performs at meat processing plants around the country. One audit set out to determine if FSIS has
sufficient inspection personnel to adequately monitor establishments that process meat and poultry
products. 2 Although FSIS requires inspectors to visit slaughter establishments at least once per day,
and at least once per operating shift, we noted that inspectors did not always comply due to events such
as inclement weather, traffic delays, inspector delays at prior establishments, and unscheduled leave by
inspectors. When such unexpected events occurred, FSIS had not established mitigating procedures
for inspectors to use during the next scheduled visit to ensure that meat and poultry products were
processed on the missed date in a safe and sanitary manner. We recommended that FSIS develop
mitigating procedures for inspectors to perform when they miss scheduled inspections at processing
establishments and require supervisors to analyze data from followup visits. FSIS generally agreed
with our recommendations.

Another audit report follows in a series of reports OIG has published regarding how FSIS tests for
Escherichia coli O157:H7 (E. coli) in U.S. beef trim. We analyzed whether the beef industry’s
sampling and testing protocols vary among plants and differ from FSIS standards, and also examined
whether test results are used by FSIS and the beef industry to improve food safety. We found that
industry was performing thousands of E. coli tests daily and generally following FSIS’ recommended
procedures. Overall, industry was taking appropriate steps to help ensure that U.S. beef is safe from
E. coli contamination. We did, however, note several areas where FSIS and industry could further

2
 Because FSIS did not track whether establishments missed scheduled procedures due to unavailable inspectors, we were
unable to reach a conclusion on the sufficiency of FSIS’ inspection staff level.
                                                          2
ensure food safety. FSIS has not issued detailed and sufficient guidance for defining industry’s plans
for high event days 3 and setting forth the agency’s expectations for how industry should react. We
recommended that FSIS issue revised guidance to industry regarding the agency’s expectations for
trim sampling and how industry should plan for and react to high event days. FSIS agreed.

Several recent OIG investigations have also highlighted the need for continued vigilance in the area of
food safety. In May 2012, a Kansas food company was convicted and sentenced to pay $480,282 in
restitution to the U.S. Bureau of Prisons for selling misbranded meat products. From August 2006
through July 2007, the manufacturer caused more than 1 million pounds of beef trim to become
adulterated and misbranded; it then sold, transported, and delivered this beef to Federal correction
institutions located in several States.

Other investigations have helped protect the USDA organic label from individuals who would abuse it.
In April 2012, an Oregon man who sold 4.2 million pounds of conventionally grown corn falsely
labeled as USDA-certified organic corn was sentenced to 27 months in prison and 36 months of
supervised release for wire fraud. This corn had been fed to cattle, and the resulting beef and dairy
products were sold to consumers as USDA-certified organic. Similarly, in November 2012, the owner
of a large volume organic products company was sentenced in California to 78 months in Federal
prison for selling fertilizer falsely represented as organic. He was also ordered to pay $9 million in
restitution.

Goal 2: Strengthening Program Integrity and Improving Benefit Delivery

One of OIG’s most important goals is helping USDA safeguard its programs and ensuring that benefits
are reaching those they are intended to reach. Given the size of the Food and Nutrition Service’s
(FNS) Supplemental Nutrition Assistance Program (SNAP)—$82 billion in FY 2012—OIG has made
a concerted effort to oversee compliance within that program.

OIG continues to direct a large percentage of its investigative resources to combatting the trafficking
of SNAP benefits. 4 In FY 2012, OIG devoted about 52 percent of its investigative resources to
SNAP-related criminal investigations, which resulted in 342 convictions and monetary results totaling
$57.7 million. In a recent example, OIG determined that a California storeowner and a “runner”
executed a plan to facilitate the exchange of electronic benefit transfer (EBT) benefits for cash. The
3
    A “high event day” is a day when a meat processing plant experiences more positive E. coli tests than usual.
4
    Trafficking is the illegal exchange of SNAP benefits for cash or other ineligible items. See 7 U.S.C. § 2024(b).
                                                                3
runner gathered SNAP recipients’ EBT cards, cashed them in at a store, and then returned cash to
recipients. In October 2012, the store owner was sentenced to 40 months’ incarceration, and he and
the runner were ordered to pay $1.1 million in restitution.

We also continue to work closely with State and local law enforcement agencies to prosecute SNAP
recipients who abuse benefits. For instance, in March 2012, when a Texas storeowner was convicted
of trafficking $1.3 million in SNAP benefits in his convenience store, OIG worked with local
authorities to pursue the recipients as well. These individuals used their benefits to buy various
ineligible items including gasoline, tobacco products, and alcohol, and also to play video poker at the
store. To date, the local district attorney has accepted referrals of over 100 SNAP recipients for
prosecution by the State of Texas.

OIG audits have shown that FNS can improve its controls over SNAP. One audit analyzed
SNAP-related databases at Federal and State levels to identify anomalies that may result in ineligible
individuals receiving SNAP benefits. We found that, while FNS and States do have tools for ensuring
applicant eligibility and detecting fraud, States either do not make full use of the tools, or cannot rely
on the data provided by the tools to take actions related to benefits. While our data mining reviews
found a relatively low percentage of potentially ineligible recipients receiving SNAP benefits (just
0.20 percent), that percentage represents large sums in a program of SNAP’s size—about $3.7 million
per month. OIG recommended that FNS make full use of the fraud detection tools it already has, as
well as strengthen its fraud reduction efforts. FNS agreed to our recommendations.

Other Food Assistance Programs

Of course, SNAP is not the only food assistance program that can benefit from improved oversight.
The National School Lunch Program contracts with food service management companies to serve
31 million children lunch each day, with total disbursements of approximately $11 billion. Our review
of 18 school food authorities showed that 11 did not exercise sufficient management oversight to
ensure they received the full benefits of purchase discounts and rebates and the value of
USDA-donated foods. As a result, we questioned almost $1.7 million in unallowable costs and
USDA-donated foods that could not be accounted for. We recommended that FNS improve its
controls over these contracts and agency officials generally agreed.




                                                     4
An OIG investigation revealed that an organized group of individuals opened 13 storefront operations
in Georgia to defraud SNAP and the Special Supplemental Nutrition Program for Women, Infants, and
Children. From February 2009 to June 2011, this group illegally exchanged over $5 million in benefits
for cash. To date, 16 individuals have been charged with conspiracy or theft of Government funds. In
FY 2012, 13 individuals were sentenced to incarceration periods ranging from 9 to 63 months and
were ordered to pay a total of $6.3 million in restitution. Three individuals are scheduled for trial in
June 2013.

Farm Programs

OIG also works to help ensure the integrity of USDA farm programs. A recent audit reviewed how the
Farm Service Agency (FSA) determines the soil rental rates used for payments in its Conservation
Reserve Program (CRP)—a program that provides annual payments to producers who agree to
maintain conservation practices such as establishing grass cover on farms to prevent soil erosion and
reduce chemical runoff. We found that FSA did not use the National Resources Conservation
Service’s (NRCS) most up-to-date measure of soil productivity, which uses scientific data relating
directly to the ability of soils, landscapes, and climates to foster crop productivity on non-irrigated soil.
Additionally, FSA did not use the National Agricultural Statistics Service’s (NASS) statistically valid
survey of county average rental rates for cropland and pastureland, and instead allowed States and
counties to submit alternate rates, which were not always supported. OIG questioned these rates and
determined that FSA’s rates exceeded NASS’ by about $127 million over the 10-year life of the CRP
contracts. We recommended that FSA improve how it determines these rates, and the agency
generally agreed.

The Risk Management Agency (RMA) and Crop Insurance

OIG has recently completed work on how RMA operates the crop insurance programs that U.S.
farmers and ranchers rely on. One of our audits reviewed how RMA reinsures private insurance
companies (known as approved insurance providers (AIP)) when they insure new producers. Such
“new producers”—defined as those who have no more than 2 years of history farming a specific
crop—are considered higher risk and RMA therefore reinsures the AIPs at a higher rate. We
determined that 154 of 176 new producer-designated crop insurance policies in our sample were sold
to insured producers who were not eligible for the new producer status—57 of these policies resulted
in indemnities totaling $2.4 million and $910,000 in associated costs. We recommended that RMA
                                                     5
improve how AIPs determine if a producer should be considered new or not, and the agency generally
agreed with our recommendations.

Our review of how RMA is overseeing Federal crop insurance coverage for organically produced crops
found that transitional yields offered to organic producers overstated actual production capabilities of
farmers producing crops using organic farming practices. We determined that this error resulted in
excessive insurance coverage and higher indemnity payments for 35 of 48 crop policies with losses.
Because the policies guaranteed excessive yields, at least $952,000 of the $2.56 million that RMA paid
in indemnities were excessive. We recommended that RMA reduce transitional yields for crops
produced using organic farming practices, and the agency agreed.

Several recent OIG investigations have also involved farm programs. In one recent case, RMA and
OIG worked together to determine that a farmer in Illinois underreported his crop production in 2009
and 2010, thereby defrauding the Government of more than $500,000. The farmer pled guilty to
money laundering and bankruptcy fraud, and was sentenced to 51 months in prison and restitution
totaling $1.8 million.

I would also like to draw the Committee’s attention to a particularly noteworthy investigation
involving widespread crop insurance fraud for tobacco in North Carolina, which has resulted in several
cases. In one case an insurance agent was sentenced to 108 months of imprisonment and $8.3 million
in restitution. In a second case a crop adjuster was sentenced to 48 months imprisonment and
$21 million in restitution jointly and severally with the other subjects of the investigation. OIG’s
ongoing investigation of this conspiracy has resulted in a total of 40 convictions, 23 years’ prison time,
and $42 million in restitution, to date. 5

Goal 3: OIG Work in Support of Management Initiatives

OIG is also working to aid the Department in improving the processes and systems it needs to function
effectively. Bringing its information technology (IT) systems into line with Federal standards has been
a significant challenge for USDA. Over the last 4 years, OIG has made 49 recommendations in our
FY 2009-2012 Federal Information Security Management Act (FISMA) audits to improve the overall




5
    These results include both cases.
                                                    6
security of USDA’s systems. 6 The Office of the Chief Information Officer (OCIO) has completed
action to resolve 14, and USDA is taking steps to resolve the remaining recommendations.

In FYs 2010 and 2011, OCIO received about $66 million to fund additional IT security projects to
address some of these system weaknesses. OIG reviewed the use of these funds and found that the
office did not prioritize its efforts to mitigate IT security weaknesses and accomplish a manageable
number of the highest priority projects before proceeding to the next set of priorities. Instead, we
found that several of OCIO’s projects did not meet the purposes outlined in the Congressional request
for funding or address the Department’s most critical IT security concerns. For example, OCIO
exceeded proposed budgets for projects, did not allot sufficient funding to key security areas, and did
not completely implement the projects it started. We recommended that OCIO document the
prioritization of projects Departmentwide, and the agency agreed to take the appropriate action.

Reducing Improper Payments at USDA

The Improper Payments Elimination and Recovery Act of 2010 (IPERA) requires OIG to determine
whether USDA complies with IPERA annually. 7 When we evaluated the improper payment
information that USDA reported, we found USDA did not fully comply with four of seven
requirements, including reporting estimates for high-risk programs, reporting complete information
about programmatic corrective actions, meeting annual reduction targets, and reporting error rates
below specific thresholds. We recommended that the Office of the Chief Financial Officer (OCFO)
fully develop its reporting process to ensure that it reports all required information about improper
payments, and that USDA meets its reduction targets. The agency concurred.

As part of the effort to eliminate payment error, waste, fraud, and abuse in Federal programs, OIG
reviewed USDA’s compliance with the executive order on improper payments and found that USDA
has made significant improvements in identifying high-dollar overpayments within its 16 high-risk
programs. 8 However, we noted that the component agencies’ submissions to the Department did not
always completely and accurately account for high-dollar overpayments and corrective actions, and
that the Department did not submit these reports until 23 to 99 days after the required due date. We
recommended that OCFO improve its oversight of this process, and the agency agreed.


6
  44 U.S.C. §§ 3541 et seq.
7
  Pub. L. No. 111-204, 124 Stat. 2224 (2010).
8
  Exec. Order No. 13, 520, 74 Fed. Reg. 62,201 (Nov. 25, 2009).
                                                           7
At NRCS, OIG reviewed the steps the agency has taken to ensure that its conservation programs are
reaching the intended participants and achieving their intended results. We found that NRCS has not
implemented a comprehensive, integrated compliance strategy designed to verify that its $3.6 billion in
conservation programs are being used as intended. Over the past decade, a number of OIG audits have
demonstrated that NRCS has long-standing problems with verifying the eligibility of participants,
participant compliance with conservation agreements, and the valuation of easements. We
recommended that NRCS perform a risk assessment of its vulnerabilities and focus its compliance
activities on areas of program weaknesses, such as eligibility. Agency officials generally agreed.

Investigations of Wrongdoing by USDA Employees

When a USDA employee is accused of criminal activity, OIG is responsible for performing
investigations of any wrongdoing. An OIG investigation found that a former FSA county committee
member and her husband conspired to defraud USDA by stealing the identities of unsuspecting parties
and submitting false and fraudulent claims. Ultimately, they caused FSA to make approximately
$1 million in fraudulent payments. In August 2012, the former FSA county committee member and
her husband were sentenced to 52 and 57 months in prison, respectively. In addition, they were jointly
ordered to pay $802,490 in restitution.

Goal 4: Improving USDA’s Stewardship of Natural Resources

OIG has recently completed several audits reviewing NRCS programs and how that agency is
managing natural resources. For example, we reviewed the Migratory Bird Habitat Initiative (MBHI),
created in response to the April 2010 oil spill in the Gulf of Mexico, to determine if MBHI was serving
its intended purpose of funding conservation practices that create or enhance habitats and food sources
for birds migrating to and through the oil spill-affected region. We found that NRCS does not have
internal controls in place to maximize MBHI conservation efforts, as NRCS’ payments for those
efforts are currently allowed to duplicate payments from other non-Federal sources. If NRCS had
reduced the financial assistance it paid participants to avoid duplicating financial assistance, it could
have applied more than $900,000 in program funds more widely and conserved an estimated
13,940 additional acres through the initiative. We recommended that NRCS avoid this funding
approach in the future, and OIG and the agency are working to reach management decision.




                                                     8
OIG’s Oversight of Recovery Act Programs

We are working to finish our remaining oversight work directed towards ensuring that the $28 billion
in funds USDA received from the Recovery Act served their intended purposes. Because many of our
recommendations concerning Recovery Act funds also apply to regular USDA programs, our work
will have lasting importance long after Recovery Act funding has been expended.

Rural Business Enterprise Grant (RBEG) Program

As part of the RBEG program, Rural Development (RD) funds projects that facilitate the development
of small and emerging rural businesses. Our review of grants disclosed that for 47 grants, worth over
$5.3 million, RD State and area offices ranked applicants’ eligibility without the necessary evidence
required to confirm whether projects were eligible. In a separate review, OIG also found that RD was
not sufficiently reviewing RBEG projects for compliance. Of the 47 grants we reviewed, we identified
20 where RD personnel did not obtain or review required forms; 3 grants either had prior unspent grant
funds or duplicated prior RBEG projects. We estimate that 70 grants (49 percent) may have similar
issues, with a projected total value of $4.6 million. We recommended that RD improve how its
personnel review these grants, and the agency generally agreed.

RD’s Single Family Housing (SFH) Guaranteed Loan Program

In order to provide low- and moderate-income people who live in rural areas with an opportunity to
own homes, the Federal Government reimburses up to 90 percent of the original loan amount if a
borrower defaults on a loan. Given increases in such loss claims—from $103 million in FY 2008 to
$295 million in FY 2011—OIG reviewed the program and determined that RD needs to better identify
loans with questionable eligibility prior to paying loss claims, reduce loss claims when lenders
improperly serviced loans, and pay lenders only for eligible expenses. We estimate that the agency
paid about $87 million in loss claims that were at risk of improper payments due to questionable loan
eligibility, and paid about $254 million in loss claims for loans that were at risk of improper payments
due to questionable lender servicing. We recommended that RD improve its loss claims process to
address these circumstances, and the agency generally agreed with our recommendations.

Most of our remaining Recovery Act projects involve assessing agency determinations of program
effectiveness through analysis of Recovery Act performance measures.


                                                    9
OIG Streamlining Initiatives

OIG continues to offer Congress an excellent return on its oversight investment, per dollar spent.
From FY 2007 to FY 2012, the potential dollar impact of OIG audits and investigations has been
$6.9 billion, while our appropriations have been $508 million. For every dollar invested, we realized
potential cost savings and recoveries of about $13.66. This calculation does not include the value of
our food safety work and program improvement recommendations, which are not easily quantified.

We have also streamlined our operations in an effort to work as efficiently as possible. For example,
in FY 2012, OIG conducted a functional analysis to ensure that we, as an agency, are tying our
resources to what is most critical to meeting our mission and are positioned to operate as efficiently
and effectively as possible. Based on this analysis, we are taking the following steps to build a leaner
and more effective agency:

   •   offering Voluntary Early Retirement Authority and Voluntary Separation Incentive Payments
       (39 employees separated pursuant to these authorities);
   •   increasing the use of video and teleconferencing to reduce travel costs;
   •   reviewing leases and office structure, resulting in savings from steps such as office
       consolidation;
   •   allowing employees to fill GS-14 and GS-15 positions without moving, which has reduced
       relocation costs; and
   •   shifting Investigations and Audit employees away from headquarters and to the field, which
       puts more resources into activities that directly accomplish our mission.

Although these steps have enabled OIG to continue performing its oversight role despite a restricted
budget, we note that OIG is presently functioning at its lowest level of authorized staffing since 1963,
when the office was established. The availability of staff and travel resources has become a key
consideration in determining which audit and investigative matters OIG can undertake.

This concludes my testimony. Thank you for the opportunity to testify, and I would be pleased to
address any questions you may have.




                                                   10
